  Report No. D-2008-133          September 25, 2008




Joint Follow-On Evaluation of the Equipment Status of
            Operation Iraqi Freedom Forces
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Report
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
FOB                           Forward Operating Base
MNF-I                         Multi-National Forces – Iraq
MTOE                          Modified Table of Organization and Equipment
OIF                           Operation Iraqi Freedom
ONS                           Operational Needs Statement
TOE                           Table of Organization and Equipment
TPE                           Theater-Provided Equipment
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON. VIRGINIA 22202-4704


                                                                                     September 25, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUlSmON,
                  TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
                  READINESS
               COMMANDER, U.S. CENTRAL COMMAND
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: Joint Follow-On Evaluation of the Equipment Status of Operation Iraqi Freedom
         Forces (Report o. D-2008- I33)

We are providing this report for information and use. No written response to this report was
required. and none was received. Therefore. we are publishing this report in final fonn.

We appreciate the courtesies extended   10   the stafT. Please direct questions to
Mr. Timothy E. Moore at (703) 604-9068 (DSN 664-9068) or Ms. Andrea L. Hill at
(703) 604-9183 (DSN 664-9183). The team members are listed inside the back cover.




                                               ~~~
                                                Deputy Director
                                                Joint and Overseas Operations
                   Report No. D-2008-133 (Project No. D2008-D000LQ-0111.000)
                                       September 25, 2008

              Results in Brief: Joint Follow-On Evaluation
              of the Equipment Status of Operation Iraqi
              Freedom Forces

What We Did                                            Client Comments
The overall objective was to determine whether         We provided a draft of this report on
forces deployed to Iraq in support of Operation        August 22, 2008. No written response to this
Iraqi Freedom had the equipment to conduct             report was required, and none was received.
their missions. Specifically, we evaluated             Therefore, we are publishing this report in final
whether the units fulfilling combat missions had       form.
the proper equipment in accordance with
mission requirements. This evaluation was
conducted in conjunction with the
Multi-National Force – Iraq Inspector General.



What We Found
We conducted this evaluation from
December 2007 through August 2008 in two
parts. Part one was collecting data through an
on-line survey to be completed by logistical             Soldiers Conducting Military Operations in Iraq
personnel who would have direct knowledge of                         Photo Courtesy of MNF-I
the unit’s equipment readiness. Part two was
conducting sensing sessions, or group
interviews, with combat battalions, aviation
squadrons, and either combat support or combat
service support battalions.


We found that units deploying to Iraq generally
had the required equipment to conduct their
missions. Units deployed with the equipment
listed on their Modified Table of Organization
and Equipment, and they assumed possession of
the appropriate theater-provided equipment to
accomplish their missions. Because of this, we
are not making any recommendations in this
report.



                                                   i
Table of Contents

Results in Brief                                  i

Introduction                                      1

       Objective                                  1
       Background                                 1

Finding. Status of Equipment                      2

Appendices

       A. Scope and Methodology                    7
             Prior Coverage                        8
       B. Multi-National Force – Iraq Directive    9
       C. Equipment Status Questionnaire          10
Introduction
Objective
The objective was to determine whether forces deployed to Iraq in support of Operation
Iraqi Freedom (OIF) had the equipment to conduct their missions. Specifically, we
evaluated whether the units fulfilling combat missions had the proper equipment in
accordance with mission requirements. See Appendix A for a discussion of the
evaluation scope and methodology and prior coverage related to the evaluation objective.

Background
This joint evaluation follows on an earlier DoDIG report to assess whether forces
deploying to Iraq in support of OIF were equipped in accordance with mission
requirements and were receiving adequate sustainment.

In December 2007, the Multi-National Force-Iraq (MNF-I) Chief of Staff issued a
memorandum that directed the MNF-I Inspector General to conduct a follow-on
evaluation, in conjunction with the DoD Office of Inspector General, on the equipment
status of forces deployed in the MNF-I area of operation (see Appendix B). The Chief of
Staff directed that the evaluation focus on determining whether forces deployed to Iraq in
support of OIF had the necessary equipment to accomplish their mission. Further, the
focus was primarily on ground and air combat units and the adequacy of the pre-
positioned equipment and the sustainability of combat support and service support units.

Multi-National Force – Iraq
MNF-I leads U.S. and Coalition personnel from 26 countries who are working with the
Iraqi government to develop critical security and governance capabilities.

In partnership with the Iraqi government, MNF-I conducts full-spectrum counter-
insurgency operations to isolate and neutralize former regime extremists and foreign
terrorists. In addition, MNF-I organizes, trains, and equips Iraqi security forces to create
a security environment that will permit the fulfillment of the U.N. Security Council
Resolution 1546 process on schedule. Resolution 1546 is a comprehensive resolution on
Iraq, which endorsed the establishment of the interim government and the holding of
democratic elections and determined the status of the multi-national force and its
relationship with the Iraqi government as well as the role of the United Nations in the
political transition.




                                             1
Finding. Status of Equipment
Operation Iraqi Freedom Forces generally had the necessary equipment to conduct their
missions. Units deployed with the equipment listed on their Modified Table of
Organization and Equipment (MTOE) and assumed possession of theater-provided
equipment (TPE) that was appropriate for their mission.

Equipment Background
Army Equipment
A Table of Organization and Equipment (TOE) sets the mission, organizational structure,
personnel, and most of the equipment requirements for a military unit. A TOE is the
basic guide for developing units. The commander of a major Army command may
modify the standard TOE for the units under his command, resulting in an MTOE. This
is an authorization document that prescribes the modifications to the basic TOE. It
provides specific units or groups with the necessary flexibility to adapt to changing
missions, capabilities, organization, personnel, and equipment. The MTOE authorizes
the reorganization of a specific unit to meet the requirements of the command to which
the unit is assigned. An MTOE published by the Department of the Army is the official
authorization document for the military units and is the authority for the property on hand
in the organization. Military planners expect a military unit to deploy with, at a
minimum, the equipment listed in its TOE.

Theater Provided Equipment
TPE is equipment that was originally deployed with units and was left in-theater for follow-
on forces or was purchased and remains in-theater for issue to units as they enter the theater.
At the start of OIF, the Army created the TPE concept to conserve transportation
resources and expedite unit deployments into theater. TPE is permanent theater
equipment that has been identified, collected, and positioned forward to offset equipment
deployment requirements, fill shortages, fill the Army-approved Operational Needs
Statement (ONS) or to fill Mission Essential Equipment Lists validated by the Coalition
Forces Land Component Command 1 . If equipment is designated as TPE, it remains in-
theater for the subsequent OIF rotation of multiple commands.

Evaluation Approach
We conducted this evaluation, in conjunction with the MNF-I Inspector General, in two
phases. In phase one, the units completed an on-line survey jointly developed by DoD IG
and MNF-I Inspector General, “Status of Equipment Questionnaire,” for data collection.
We provided this survey to brigade combat teams for further dissemination to subordinate
units for completion. We requested that logistical personnel having direct knowledge of
the unit’s equipment readiness status, shortages, and the condition of the equipment


1
 Coalition Forces Land Component Command is a multinational land force that on order conducts land
operations across the U.S. Central Command area of responsibility.


                                                  2
complete the on-line survey. We also requested that personnel completing the survey
include not only combat units, but also combat support and combat service support units.

During phase two of the evaluation, in conjunction with MNF-I Inspector General, we
used an information-gathering technique and conducted sensing sessions, which are
group interviews. We requested interviews or sensing sessions with logistics personnel.
We conducted 27 sensing sessions with company- and battalion-level personnel from
combat battalions, aviation squadrons, and combat service support battalions.

Equipment Requirements
Predeployment Site Survey
OIF Forces generally had the necessary equipment to conduct their missions. This was
accomplished with the aid of the predeployment site survey. The incoming commanders
and their staff generally conducted a predeployment site survey approximately 90 days
before deployment. The incoming commander and staff would meet with the unit they
were replacing to further determine the mission they would sustain. Additionally,
depending on the mission, the incoming commanders would assess what equipment they
needed to bring and what equipment would be provided in-theater. Several units, for
example the Marine Corps 1-7 Infantry Battalion at forward operating base (FOB)
Al Asad, and the 307th Brigade Support Battalion at FOB Adder, conducted
predeployment site surveys to ensure they had the necessary equipment to conduct their
missions.

On-line Survey
To determine if units had the equipment necessary to conduct their missions, logistics
personnel having direct knowledge of the unit’s equipment readiness status, shortages,
and the condition of the equipment completed an on-line survey. See Appendix C for the
“Status of Equipment Questionnaire.”

We received 740 responses to the survey from 87 battalion- and squadron-sized units.
We sorted the responses to determine which units had equipment shortages. An analysis
of the data determined that none of them reported having critical equipment shortages.
We then used the data collected from the survey during the sensing sessions to validate
the reliability of the survey.

                         Table 1. Survey Responses by Rank
                         Rank                  Number of Personnel
             Civilian                                    2
             Enlisted                                  278
             Warrant Officers                           46
             Officers                                  414
                     Total                             740




                                           3
Sensing Sessions
To further determine if units had the equipment necessary to conduct their missions, we
conducted 27 sensing sessions with 16 Army and Marine Corps units that included both
battalion- and company-level personnel. These personnel included Army executive
officers, company commanders, platoon sergeants, and supply sergeants. Personnel from
the Marine Corps included commanders, executive officers, supply officers, logistics
officers, an operations officer, an aviation supply officer, an aircraft maintenance officer,
an armory chief, company commanders, company executive officers, a platoon
commander, an ordnance chief, maintenance chiefs, an operations chief, a flight line
chief, and a flight surgeon.

                   Table 2. Participation in Sensing Sessions by Rank
                           Rank                        Personnel
               Enlisted                                    108
               Warrant Officers                             27
               Officers                                    102
               Not Provided                                  9
                      Total                                246

During these sensing sessions, we asked a series of questions regarding unit equipment.
Specifically, we asked whether the unit had the proper quantities and quality of weapons,
body protection, communication gear, vehicles, and maintenance and replacement parts
necessary to accomplish their mission. According to their responses, personnel did not
identify any mission-critical shortages of equipment.

Additionally, during the sensing sessions with battalion-level units, we asked personnel
if they deployed with the equipment on their MTOE and if the TPE was sufficient to meet
their mission requirements. Of the 16 units:

    •   12 deployed with the equipment on their MTOE and assumed possession of TPE
        that sufficiently met their mission requirements. For example, the 307th Brigade
        Support Battalion, located at FOB Adder, had a mission to perform distribution,
        maintenance, combat health support, and command and control. The battalion
        deployed with 271 weapons 2 from the MTOE and assumed possession of
        25 additional weapons from the TPE.
    •   Three units did not specify during the sensing sessions that they deployed with the
        equipment on their MTOE or that TPE was sufficient. However, those battalion-
        level personnel stated that they had the necessary equipment to conduct their
        missions.




2
 The 307th Brigade Support Battalion includes seven companies. The number of weapons was for
four companies: Headquarters and Headquarters Company, Distribution Company (Alpha Company), Field
Maintenance Company (Bravo Company), and the Medical Company (Charlie Company).


                                                4
    •   One unit, the 104th Military Police Battalion, had the necessary equipment to
        conduct its mission at the time of our visit; however, it did not assume possession
        of TPE nonlethal weapons.

According to personnel, the 104th Military Police Battalion, deployed to FOB Bucca, are
tasked with the housing and transfer of detainees as FOB Bucca is the primary detainee
facility in Iraq. The nonlethal weapons shortage was corrected through the ONS
process 3 , and the equipment provided to the battalion will become TPE and be passed on
to the next battalion.


Summary
We conducted this joint evaluation with MNF-I Inspector General, who was directed by
the MNF-I Chief of Staff to follow up on our DoD IG Report No. D-2007-049,
“Equipment Status of Deployed Forces Within the U.S. Central Command,” January 25,
2007, report on the status of equipment provided to forces deployed to Iraq in support of
OIF. We found between December 2007 and April 2008 that units deployed with the
equipment on their MTOE and assumed possession of the appropriate TPE to conduct
their missions. Therefore, we are not making any recommendations in this report.




3
 The ONS process is used to document the urgent need for a materiel solution to correct a deficiency or to
improve a capability that impacts upon mission accomplishment.


                                                     5
Appendix A. Scope and Methodology
We conducted this follow-on evaluation from December 2007 through August 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the evaluation to obtain sufficient, appropriate evidence
to provide a reasonable basis for our finding and conclusion based on our evaluation
objective. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusion based on our evaluation objective.

We reviewed data collected electronically through Microsoft SharePoint software to
obtain a general understanding of the equipment status before our site visits and sensing
sessions. The survey resulted in 740 individual responses from logistics personnel in
87 battalion- and squadron-sized units. We collected, analyzed, and reviewed a
combination of testimony and documentation.

Between January and March 2008, we met with and conducted sensing sessions with
battalion- and company-level personnel to determine whether forces deployed to Iraq in
support of Operation Iraqi Freedom have the equipment to conduct their missions. The
personnel were from the following:
       U.S. Army 104th Military Police Battalion,
       384th Military Police Battalion,
       391st Military Police Battalion,
       705th Military Police Battalion,
       203rd Brigade Support Battalion,
       626th Brigade Support Battalion,
       3-6 Field Artillery Battalion,
       4-10 Cavalry Battalion,
       769th Engineering Battalion,
       307th Brigade Support Battalion,
       Air Regiment 5-158,
       Task Force 106,
       U.S. Marine Corps 1-7 Infantry Battalion,
       323rd Infantry Battalion,
       Marine Heavy Helicopter Squadron 361st, and
       Marine Aviation Logistics Squadron 16.

Use of Computer-Processed Data
We did not extensively use computer-processed data to perform this evaluation. To
provide a basic understanding of the equipment status across the theater, we requested
that battalions provide feedback via an electronic survey conducted with Microsoft
SharePoint software. The survey resulted in 740 individual responses from 87 battalion-
and squadron-sized units. We did not assess the reliability of the computer-processed
data. However, we conducted sensing sessions and gathered data from several of those
same units that participated in the on-line status of equipment survey and determined that
the computer-processed data were reliable.


                                            7
Use of Technical Assistance
We received technical assistance with the Microsoft SharePoint software from the
Multi-National Forces-Iraq Computer Information Systems Camp Victory FORCE
SharePoint Administrator to perform this follow-on evaluation.


Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) has
issued two reports discussing whether forces deployed to Iraq in support of Operation
Iraqi Freedom have the equipment to conduct their missions. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/audit/reports.


DoD IG
DoD IG Report No. D-2007-049, “Equipment Status of Deployed Forces Within the
U.S. Central Command,” January 25, 2007.

DoD IG Report No. D-2007-010, “The Army Small Arms Program That Relates to
Availability, Maintainability, and Reliability of Small Arms Support for the Warfighter,”
November 2, 2006.




                                            8
            Appendix C. On-Line Equipment Status
            Questionnaire




Home   Directorates   MSCs   Special Staff         Briefings     DoD Disclaimer   PKC    Victory 455 Run



                                 Inspector General
                                 Equipment Status Questionnaire : New Item


                                  Save and Close    |   Go Back to Survey



                              1. What is your service?




                              2. What is your Rank? *




                              3. What Division and BCT/RCT are you attached to?
                              If other, please specify MND-Central, MND-North, MNF-W etc. *



                                          -

                                        Specify your own value:




                              4. What Battalion/Squadron (or other equivalent size unit) are you attached
                              to within your BCT (RCT)? *




                              5. What was your Deployment Arrival Date? *




                                   Enter date in M/D/YYYY format.




                                                          10
6. What guidance/policy did you follow when preparing to deploy?



         Lessons Learned

         DoD Regulation

         CRC

         Specify your own value:




7. Check the lists of equipment you used when preparing to deploy?



         Mission Essential Equipment List (MEEL)

         Modified Table of Organization and Equipment (MTOE)

         MTOE plus formula

         Unit Deployment List

         Other

Other:




8. What process did your unit use to deploy mission essential equipment
to your unit prior to or after deployment?



         MEEL via Equipment Common Operating Picture (ECOP)

         MTOE plus formula via ECOP

         OTher Process (Explain)

         Specify your own value:




9. Was everything that was required for your mission,
on the pre-deployment list (If No, briefly explain)?



         Yes

         No (Explain)

         Specify your own value:




10. Were there any shortages in equipment (Vehicles, Weapons,
Organizational Equipment, Personal Equipment)? If yes, please briefly specify
equipment shortage.




                          11
         Yes (Explain)

         No

         Specify your own value:




11. Did your unit submit any Operational Needs Statements (ONS) prior to deployment?



         Yes

         No

         N/A

12. Did you submit an Operational Needs Statements (ONS) after deploying?



         Yes

         No

13. Did you have any information from the unit you were replacing
about equipment they were leaving behind?



         Yes

         No

14. What was the condition of the equipment you were left with?



         Brand new

         Used but well maintained

         Used but poorly maintained

         Used Approaching end of useful life

         Not maintained and poor condition

         Not usable

15. Have you provided feedback on the process and equipment
needed to complete your mission?



         Yes (Explain)

         No

         Specify your own value:




                         12
16. Have any missions been cancelled or delayed due to not having proper equipment?



          Yes

          No

17. Please remember to scroll to the top of the page, and choose "Save and Close" to save and
submit this survey. Furthermore, do you have any remarks you wish to include about
equipment status? These can be explanations to any questions above, any specific
recommendations or requirements you may have or general observations you wish
 to include with this survey.




                 |                |                 |                        |


* indicates a required field




                          13
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing, Joint
and Overseas Operations prepared this report. Personnel of the Department of Defense
Office of Inspector General who contributed to the report are listed below.

Donald A. Bloomer
Timothy E. Moore
Andrea L. Hill
